<html>
<title> - FIELD HEARING: TULSA, OK: HOW REGULATIONS STIFLE SMALL BUSINESS GROWTH</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





 
 FIELD HEARING: TULSA, OK: HOW REGULATIONS STIFLE SMALL BUSINESS GROWTH

=======================================================================

                                HEARING

                               before the

        SUBCOMMITTEE ON ECONOMIC GROWTH, TAX, AND CAPITAL ACCESS

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                             JULY 22, 2019

                               __________

                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        




            Small Business Committee Document Number 116-037
             Available via the GPO Website: www.govinfo.gov
             
             
             
             
             
                              ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 37-074                 WASHINGTON : 2019
             
             
             
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                        TRENT KELLY, Mississippi
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania

                Adam Minehardt, Majority Staff Director
     Melissa Jung, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                   
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Andy Kim....................................................     1
Hon. Kevin Hern..................................................     3

                               WITNESSES

Mr. Chad Selman, Owner, Selman Farms, LLC, Skiatook, OK..........     7
Mr. Chris Jordan, President and Chief Executive Officer, The 
  Farmers State Bank, Stigler, OK................................     9
Mr. Howard L. (Bud) Ground, Director of Regulatory Affairs, The 
  Petroleum Alliance of Oklahoma, Oklahoma City, OK..............    11
Ms. Elizabeth Osburn, Senior Vice President of Government 
  Affairs, Tulsa Regional Chamber, Tulsa, OK.....................    13

                                APPENDIX

Prepared Statements:
    Mr. Chad Selman, Owner, Selman Farms, LLC, Skiatook, OK......    30
    Mr. Chris Jordan, President and Chief Executive Officer, The 
      Farmers State Bank, Stigler, OK............................    34
    Mr. Howard L. (Bud) Ground, Director of Regulatory Affairs, 
      The Petroleum Alliance of Oklahoma, Oklahoma City, OK......    59
    Ms. Elizabeth Osburn, Senior Vice President of Government 
      Affairs, Tulsa Regional Chamber, Tulsa, OK.................    63
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    None.


              HOW REGULATIONS STIFLE SMALL BUSINESS GROWTH

                              ----------                              


                         MONDAY, JULY 22, 2019

              House of Representatives,    
               Committee on Small Business,
                   Subcommittee on Economic Growth,
                                   Tax, and Capital Access,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 9:00 a.m., at 
Oklahoma State University-Tulsa, North Hall Conference Center, 
Room 150, 700 N. Greenwood Ave., Tulsa, OK, Hon. Andy Kim 
presiding.
    Present: Representatives Kim and Hern.
    Chairman KIM. Good morning, everyone. The Committee will 
come to order.
    I want to thank everyone for joining us here this morning. 
First I would like to thank Congressman Hern for welcoming me 
to Oklahoma, for putting this all together and making sure that 
we have an opportunity here directly for you.
    First of all, I will just start by saying it is a real 
great honor to be able to be here in Oklahoma. I am glad I 
could bring the cooler weather here to you today, and hopefully 
we will be able to bring a good discussion as well on what it 
is that we can be doing for you.
    This is my very first time doing a field hearing, a hearing 
outside of D.C., and I will tell you, this is the kind of stuff 
that Congress needs to be doing more of in terms of coming out, 
meeting you where you are at, hearing from you, understanding 
what is happening on your end and not just living in some sort 
of bubble in Washington, D.C.
    I have the great honor of being able to serve on this 
Committee and the Subcommittee with Congressman Hern, and from 
the very beginning we had a sit-down just talking through what 
it is that we can be doing together, really trying to make sure 
that the Small Business Committee is a committee that is 
focused on the people, that in this time of divided government, 
that it is a place where we can show the rest of Congress, as 
well as the rest of this country, what bipartisanship means in 
terms of our ability to focus in on where the rubber hits the 
road on the issues that matter to individuals and businesses, 
especially small businesses, each and every day, and really 
trying to have an impact on the tangible things that can be 
done to be able to address that.
    I remember the very first time when I was sitting in his 
office and we were talking about what are some of the issues 
that we could be working on, this issue that we are going to be 
talking about today was the first thing out of his mouth. He 
said, look, we have to find ways to make sure that we are 
helping out our small businesses, making sure that we are not 
drowning them in paperwork, that they are able to operate in 
the way that they need to.
    So I am really glad that we have an opportunity to hear 
from our witnesses here today, as well as just the broader 
community about what it is that we can be doing.
    I think for me, this is an issue where we have been 
grappling on this over the course of the last six months, 
trying to figure out what is the right balance that we are 
dealing with when it comes to the regulation side, but also the 
promotion of business side. And I think that we really need to 
think about this in both ways and try to strike the right 
balance.
    It is a balance that is hard to strike, but it is a fine 
line that we as legislators need to figure out and understand 
what it is going to be that we do. It would be irresponsible of 
us to simply disregard all regulations, but we also need to 
make sure that we are trying to find the right balance, 
focusing on the right issues.
    In particular for me today, to hear from all of you about 
what are the tangible impacts that this is having, either on 
the bottom line financially or on personnel or others, that is 
helpful for me to take back and understand how does this 
actually get implemented. From my end, having been on the 
Federal Government side--I was a diplomat before this, worked 
at the State Department, Pentagon--I certainly have from my own 
experiences troubles where we have been burdened with all sorts 
of reports and other things, and it prevented me from doing the 
job that I was being asked by the American people to do. So I 
understand that there has to be ways in which we can strike 
that balance, and small businesses experience that even greater 
than what it is that I experienced, and I certainly want to 
find ways that we can be focused on it in that way.
    We must think about it not just in terms of the impact 
today but also the impact over the course of the long term, 
what the consequences would be.
    Also, just trying to extrapolate and take from the lessons 
that you are giving us today, the insights that you will have, 
and how that applies more broadly to other businesses, other 
industries that aren't represented in this room today as well, 
and that is a responsibility that Congressman Hern and I have, 
that we have to make sure we are trying to look at the bigger 
picture and understand how that all comes together.
    We understand the implications as we have seen regulations 
and the impacts that that had, as well as the consequences that 
happened when they were not having the proper oversight, 
whether that was with the financial crisis in 2007 to 2008, or 
environmental issues, which I know we will get into. Certainly, 
as a district on my end on the Jersey Shore, a district that 
got crushed by Superstorm Sandy, where we are having real 
environmental problems, whether that is along the shoreline or 
in the pinelands, we have a tremendous amount of flooding that 
I also heard is something that this community here is 
struggling with as well. So just trying to understand how are 
we mindful about this while we are also looking out for our 
businesses, especially small businesses.
    We also need to make sure that we are ensuring that the 
regulations are not harming the small firms, folks that are 
just trying to get their businesses up and running, not getting 
caught up in the red tape, find the right way to right-size our 
regulations and make sure that they are actually getting at the 
intended purpose. Having read through some of the words that 
you will likely be saying in our testimonies, just 
understanding what was the intention of this rule or regulation 
and is that actually being implemented, because even if it has 
the right intention, it could be outdated, it could be 
something that isn't just quite getting at the heart of it, and 
again putting in burdens while also not serving the function 
that it was put in place to do.
    Certainly, we see things from our own angle, but having 
your perspective and the perspectives of folks and businesses 
right here in Tulsa and across Oklahoma is critically important 
to that.
    During today's hearing we will hear from small business 
owners, bankers and farmers about the regulation impacts on 
their businesses and local communities, and I look forward to 
hearing from each and every one of you about what it is that we 
can do to improve our regulatory system, promote economic 
growth and job creation, while continuing to protect our 
consumers, our families, and our communities.
    Again, I want to thank the witnesses all for being here 
today, and I would now like to yield to the Ranking Member, Mr. 
Hern, for his opening statement and to introduce our witnesses.
    Mr. HERN. Thank you, Mr. Chairman.
    Chairman Kim mentioned it is his first time to be in Tulsa, 
and the way this works--and I am greatly indebted to him 
because I told him I would love to return the favor. But to 
have these field hearings, you have to have your colleague on 
the other side be willing to attend, and he was most gracious 
in offering his presence to be here to make this work. I 
jokingly said I am wearing my bipartisan tie today. It has red 
and blue in it. But this Committee has been really refreshing, 
to see a committee where you can work together to find 
solutions, because what I have found, and I think the Chairman 
would agree with this, is that when you are sitting with 
witnesses, at the end of the day they are really not very 
partisan at all, they just want things to move out of the way 
so they can grow business, create jobs, put Americans to work, 
which is exactly why I ran for Congress, was to reduce the 
regulations on small business and people with ideas who wanted 
to go find capital, create business, create jobs, put Americans 
to work.
    So this is a very refreshing committee to be on in the 
midst of all of the crazy tweets on both sides and all the 
messaging going on. But this is very refreshing.
    Congressman Kim serves in New Jersey's Third District, 
which goes from Pennsylvania over to the Atlantic Ocean. Is 
that right?
    Chairman KIM. That is right.
    Mr. HERN. Yes. So it is great. We both serve on the 
Economic Growth and Tax and Capital Access. If you think about 
it for a second, it is hard to start, if not impossible, if you 
can't get capital to start, take your idea and start a 
business. From time to time it is very difficult if you can't 
find capital to grow your business. Certainly every one of us, 
regardless if you are in business or if you are working for 
somebody, we are always dealing constantly with the tax issues, 
does it apply, does it treat you fairly, does it prevent the 
government from picking winners and losers. At the end of the 
day, the regulatory process, we do have to have a certain 
amount of regulations to protect from certain things that 
happen out there, but it is always the swinging of the pendulum 
that sometimes gets us when we make it so overbearing that we 
cannot even stay in business.
    I understand this very well. I have been in small business 
since 1985. I created my first one-person business under then-
President Ronald Reagan and had the fortunate opportunity with 
every president since then to create a small business, operate 
small businesses for a long time, so I get it.
    When you are the last to get paid, every regulation is just 
like a tax. It prevents you from growing your business. It 
prevents you from being able to create jobs, put Americans to 
work.
    I spent 17 years on executive bank boards, 13 years on 
McDonald's National Leadership Council, working with every 
diversity group in America. McDonald's is the most diverse 
company in the world. It wins national and global honors for 
that every year. It is about listening to ideas, finding 
solutions, and growing businesses. That is what it is about. I 
would say that we would be better off if we could continue to 
do that and have less dependency on Washington, D.C. There is 
no gain from that from the standpoint of dependency. Most 
Americans, again, if you let people and our witnesses speak in 
the Small Business Committee, if you walked in that room after 
the first introductions, you probably couldn't tell what party 
they belonged to. It has been very refreshing, and I think most 
people would recognize that as well.
    I served five years as the Chief Financial Officer for the 
McDonald's franchisees in the system on our National Leadership 
Council, five years on our McDonald's tax policy, so global tax 
policy, domestic tax policy, large corporation, small business. 
So I have seen it from every perspective, what happens when you 
have extenders, don't have extenders, lower the rates so 
everybody benefits, and then eight years on their global 
insurance board. So I have seen the impact of insurance on 
small business when it comes to regulatory processes and what 
that does to drive the business.
    As the Chairman said, we don't have every small business 
industry represented in here. We have a cross-section of four. 
Some would argue, Mr. Selman, that you work in the Farm Bureau 
but you are also in the other area of agriculture. So as you 
are looking at these things, you are talking about how do we 
take this information and do we cross-pollinate all the 
different industries and say how can we take what we learned 
today and be able to help small businesses grow.
    The interesting thing about small businesses, we stand at 
3.2 percent unemployment in Oklahoma, over 350,000 small 
businesses in Oklahoma, and that is about 99.4 percent of all 
firms in the state. Nationally, small businesses account for 
99.7 percent of all firms in the United States. Think about 
that. Only three-tenths, three-tenths, of 1 percent of all 
businesses in the United States are what we call large 
businesses.
    So 28 million small businesses in America. We had a period 
of time there when regulations were stifling that we actually 
had a net decline in small businesses. When you think about 
what we consider as large businesses today, what we consider 
McDonald's Corporation, what we consider Walmart Corporation, 
what we consider Amazon, what we consider Microsoft, what we 
consider Apple as very large corporations, every single one of 
them started out in garages as a one-person shop or a two-
person shop.
    The point being of that is if our small businesses aren't 
growing, how are we going to have big businesses in the future? 
We have to have the incubators of the small business men and 
women growing their small businesses so that one day some of 
them will grow through the cracks and be the large business 
that took the right risk at the right time, had the right 
access to capital at the right time, found a niche, created 
value, and grew a customer base and became a large company. Not 
any one large company in this country or around the world 
became a large company the next morning. It took a lot of 
growth and finding out how to maneuver and get around.
    So I wanted to just talk about this issue of regulations, 
why it impacts small businesses so much more than large 
corporations. Large corporations have banks and banks of 
attorneys, outside consultants. I always jokingly say, as a 
small business person, you are sort of chief cook and head 
bottle washer. You are the janitor, you are the person who 
works on your HR issues, your compliance issues. You do it all. 
It becomes very burdensome because there is only so much time 
in the day, and if you are taking away your time, your 
leadership time to deal with those compliance issues, some that 
may be extraneous to your business, then you are taking away 
from the ability to look at a strategic plan for your business.
    Recent data show small business owners spend approximately 
$12,000 every year on compliance. That number balloons to over 
$80,000 for the start-up companies. Almost half of all small 
businesses spend over 40 hours per year complying with Federal 
regulations. We expect small businesses to grow, but if we are 
having this kind of regulatory burden, it is very difficult to 
get started.
    I was just reading an article this morning that was talking 
about the maneuvering through the regulatory process, and we 
are only talking about the Federal issue. We also have the 
state and local issues to deal with, as well. We can only talk 
about what we call Washington, D.C. Federal regulations, but 
there are so many others that we need to recognize, and I think 
at times people that are not in the business world tend to 
forget the multiple levels of burdensome regulations that we 
have, along with everything else you have to deal with.
    So I really appreciate you all being here today to share 
this information with us.
    The Administration has made it a priority to lift some of 
those hurdles that stand in the way of progress. When President 
Trump became president, he mentioned cutting 2-to-1 
regulations. For every regulation introduced, he wanted to take 
two out. It is actually up to around 22 regulations that have 
been cut.
    Again, he is not saying cut them all because there are 
needs for certain things, a regulation to protect our 
environment, to protect how workers are treated. But again, 
there is a swing that has gotten a little bit out of control.
    Again, I want to just thank you all for being here today, 
to recognize from the Chamber to the representative 
organizations to energy, which accounts for so much of our 
economy, to our banking industry, and look forward to listening 
to what you all have to say today, what we can take back.
    Again, I just don't want to leave this opening statement 
without saying thanks so much to my Chairman for being here 
today, I really appreciate it.
    Chairman KIM. Thank you.
    Mr. HERN. And we are going to go get some great food after 
this, take you to Tulsa Food.
    So, I want to talk about our first witness, who is Chad 
Selman. Mr. Selman is the owner of Selman Farms, LLC in 
Skiatook. Mr. Selman raises cattle and pecans, and is also a 
member of the Oklahoma Farm Bureau and the Vice President of 
Tulsa County Farm Bureau.
    Mr. Selman, thank you for joining us this morning.
    Our next witness is Mr. Jordan. Mr. Jordan is the President 
and CEO of Farmers State Bank, with multiple locations in 
Oklahoma. Mr. Jordan is currently the Secretary of the 
Independent Community Bankers Association, or Bankers of 
America rather, ICBA trade association, and a previous Chair of 
the Community Bankers Association of Oklahoma.
    Mr. Jordan, thank you for being here.
    Our next witness is Howard Bud Ground. Bud, right? Mr. 
Ground is the Director of Regulatory Affairs for the Petroleum 
Alliance of Oklahoma. Mr. Ground is a leader in regulatory 
issues, with years of experience in compliance and rulemaking 
matters.
    Mr. Ground, I appreciate you joining us today.
    Our last witness is certainly not the least famous, Ms. 
Elizabeth Osburn. Ms. Osburn is the Senior VP of Government 
Affairs for the Tulsa Regional Chamber, with years of public 
policy and legislative experience both in Washington and in 
Oklahoma. Ms. Osburn leads all the Regional Chambers' advocacy 
efforts.
    Ms. Osburn, thank you for joining us today, a great friend 
of business in Oklahoma.
    So with that, Mr. Chairman.
    Chairman KIM. Look, I just want to say that every time I 
hear Congressman Hern talk about his experience that he brings 
to the table, it just really makes me feel good about what we 
are doing on the Small Business Committee, that we have people 
who live and breathe this, that understand what it is like to 
start something up from scratch. It is just such an incredible 
professional experience that he brings to the table, but across 
the board in the Small Business Committee. I think his remarks 
really reminded me of exactly what you were saying. You were 
saying across our country, 99.7 percent of businesses are small 
businesses, and that is a voice that gets often just lost in 
the mix of things. When we are talking about big-picture 
issues, whether that is taxes or whether that is about 
different industries or trade or other aspects of that, I know 
from personal experience that so many people in Congress on 
both sides of the aisle just immediately jump to thinking about 
how that is going to impact big tech or big corporations, big 
companies.
    Our job is to try to make sure that we are making sure that 
the voice of small businesses is in that mix, that it is being 
considered, it is not some afterthought that people tack on 
later on but it is something that is at the forefront of what 
it is that we are trying to do.
    So again, your voices are the ones that we are trying to 
lift up, and I am grateful for you coming out today.
    We didn't bring our fancy gizmos and gadgets in terms of 
having lighting systems of red, yellow, green, things like 
that. But just in general, we are trying to keep folks to about 
5 minutes with your opening statements. I am not going to gavel 
you to death or anything if you go over. We are going to try to 
keep this informal and we just want to make sure that you have 
the time that you need to tell us what it is that you want us 
to know and take back to Washington.
    So on that front, why don't we just jump right in? Mr. 
Selman, over to you. Why don't you kick us off with your 
remarks?
    Maybe you can pull the mic over. I can hear you fine, but I 
just want to make sure.

STATEMENTS OF CHAD SELMAN, OWNER, SELMAN FARMS, LLC, SKIATOOK, 
 OK; CHRIS JORDAN, PRESIDENT AND CHIEF EXECUTIVE OFFICER, THE 
   FARMERS STATE BANK, STIGLER, OK; HOWARD L. (BUD) GROUND, 
   DIRECTOR OF REGULATORY AFFAIRS, THE PETROLEUM ALLIANCE OF 
  OKLAHOMA, OKLAHOMA CITY, OK; ELIZABETH OSBURN, SENIOR VICE 
PRESIDENT OF GOVERNMENT AFFAIRS, TULSA REGIONAL CHAMBER, TULSA, 
                               OK

                    STATEMENT OF CHAD SELMAN

    Mr. SELMAN. Hello. Thank you for the opportunity to provide 
comments on this important topic. I am Chad Selman from 
Skiatook, owner of Selman Farms, a pecan growing operation. 
Oklahoma is the first in the nation in native production and 
fifth in overall production, harvesting around 16 million 
pounds annually. I lease around 1,800 pecan acres. We harvest 
more than 25,000 trees. Our groves consist of 90 percent native 
pecans and 10 percent improved varieties. In addition to my 
pecan operation, I have a 120-head cow-calf herd.
    I serve as Vice President of the Tulsa County Farm Bureau 
and President of the Oklahoma Pecan Growers Association. I 
serve on the Board of the U.S. Pecan Growers Council, the 
American Pecan Federation Board, and the American Pecan Council 
in the alternate broker/buyer position.
    Labor makes up the largest percentage of my operating 
expenses. I use the H-2A Temporary Agricultural Worker program. 
These workers are not immigrants but foreign nationals. My 
workers are from Mexico, and most return every year.
    Pecan groves require a lot of hands-on caretaking and 
physical labor. I contract for two H-2A workers for 10 months 
of the year for grove work. During the spring and summer, the 
workers trim branches from trees, some of which is done from 
the ground and some with a tree trimmer with a hydraulic pole 
saw. We manage the ground cover between the trees through 
mowing, spraying of the weeds, and baling hay. The hay feeds my 
cow-calf herd in the winter. We spray the trees to keep them 
free from insects and plant pests. All the fallen branches must 
be physically picked up from the grove floor and disposed of, 
which is back-breaking work. We must have a clean grove floor 
to harvest the pecans. I could not operate my farm without 
these workers, as few Americans want to do this difficult work.
    During harvest I employ 11 additional H-2A workers, 
bringing the total to 13. We have a tree shaker machine that 
literally shakes each individual tree. The pecans that fall to 
the ground are swept up by a pecan harvester, then transferred 
to a trailer for transport.
    I have a cold storage facility that holds 2 million pounds 
of pecans. In addition to storing my own pecans, I lease space 
to commercial pecan shellers. The cold storage facility 
requires year-round workers to weigh and bag pecans, drive the 
forklift, and load and unload trucks.
    Because the H-2A program is so complicated, I would never 
try to arrange for workers myself. I use a third-party 
consultant who handles the paperwork, including the H-2A 
advertising. Workers arriving on different days require 
separate contracts. Under the program, I am required to 
advertise for workers in three different states, three 
different times. This is to provide Americans with the first 
opportunity to work for me. If I don't succeed in hiring 
Americans, it proves I need the H-2A labor. During 13 years of 
advertising in the U.S., we have had only six people apply for 
a job. We hired three, and the other three never showed up.
    I pay another person to make sure the workers make their 
appointments at the consulate and have their documents in 
order.
    The minimum amount I pay the workers is $12.23 an hour, the 
adverse effective wage in Oklahoma. This is required so I am 
not displacing Americans who would otherwise work for me. By 
comparison, the minimum wage in Oklahoma is $7.25 an hour. What 
I pay for the adverse effective wage is more than what my 
neighbors pay for similar labor.
    I pay the H-2A workers' transportation costs from their 
country to my location, a per diem that covers their meals 
during travel and consulate fees, before they even begin their 
work for me. This year, it cost us more than $500 per worker to 
get them to my farm. While they work for me, I provide housing 
and transportation to and from the workplace, as well as to the 
grocery store once a week. I also pay for their transportation 
back to their country.
    One of the most challenging aspects of my business is 
having the right number of workers when I need them. We are 
required to pay 75 percent of the contract hours from the time 
they arrive. Because of the weather last year we had a short 
crop, and harvest lasted only two weeks. I filed to stop the 
contract early due to unforeseen events. That process takes 
three weeks to be approved. Knowing that I would receive 
approval with the appropriate documentation, I sent the workers 
home early so they wouldn't have to stay here with nothing to 
do.
    There is great value to the foreign nationals who work for 
me. I mentioned many of the same workers return to work for me 
every year. I couldn't operate my farm without them, as 
Americans don't want to do this type of work. I need skilled 
workers, not inexperienced ones that I have to train who could 
tear up expensive equipment and cost me time and money.
    Last week the Department of Labor, Employment and Training 
proposed to help America's farmers with rules to modernize and 
improve the H-2A program. I am encouraged by this. We need 
revision of the H-2A program to remove those things that don't 
make sense and that are overly burdensome. The process could be 
simpler so it is better for me as the producer and better for 
them as the workers. Because things like weather are beyond our 
control, production agriculture needs to have H-2A flexibility.
    I have some thoughts on how to make the program better. 
This could include approving workers' visas for five years at a 
time and allowing workers to come and go during the year when 
the labor is needed, rather than limiting them to a continuous 
stay per each contract.
    Again, thank you for the opportunity to share my concerns. 
I will be happy to answer your questions.
    Chairman KIM. Thank you so much for your testimony, I 
appreciate it.
    Mr. Jordan, we are going to turn it over to you. You are 
now recognized for 5 minutes.

                   STATEMENT OF CHRIS JORDAN

    Mr. JORDAN. Chairman Kim, Ranking Member Hern, and members 
of the Subcommittee, my name is Christopher Jordan, and I am 
President and CEO of the Farmers State Bank, a $110 million 
bank headquartered in Stigler, Oklahoma.
    I testify today on behalf of the community banks 
represented by the Independent Community Bankers of America. 
Thank you for convening today's hearing.
    Farmers State Bank was founded in 1908 and has been in my 
family since 1969. I am a third-generation community banker. 
Today, Farmers State Bank serves four rural communities in 
southeastern Oklahoma. Our business model is typical of a rural 
community bank, with a mix of small business, agricultural, and 
residential mortgage lending.
    Like other community banks, we have thrived across 
generations by maintaining a simple capital structure, 
conservative lending practices, and being dedicated to the 
success of our communities.
    Community banks play a critical role in providing small 
business credit, and yet the vital partnership between 
community banks and small business is at risk today because of 
the exponential growth of regulation. In a few short years, the 
nature of community banking has fundamentally changed from 
lending to compliance. I believe the new regulatory burden has 
contributed significantly to the loss of over 2,300 community 
banks since 2010. With fewer banks, small businesses have less 
access to credit.
    The local bank may be replaced by the market bank or a non-
bank financial technology company that is less willing to make 
a loan in those areas. The good news is that we have readily 
available solutions for this pending crisis. ICBA's Community 
Focus 2020, or CF 2020, is a regulatory relief agenda that will 
allow Main Street small businesses to prosper. A copy of that 
CF 2020 is attached to my written statement.
    While the CF 2020 includes dozens of recommendations 
covering the major threats to community banking, I want to 
focus my comments on four areas that would have the greatest 
impact.
    First is the Bank Secrecy Anti-Money Laundering compliance 
that increasingly burdens community banks with identifying, 
investigating, policing, and reporting potential criminal 
activity. ICBA supports reforms that will ease compliance while 
providing more useful data to law enforcement. The Currency 
Transaction Report Threshold was set in 1970 at $10,000 and has 
not been adjusted for inflation. A threshold of $30,000 would 
produce more targeted, useful information for law enforcement.
    The Suspicious Activity Report, or SAR, is a way for banks 
to provide leads to law enforcement. However, bankers have a 
tendency to over-file SARs to protect themselves from examiner 
criticism, which dilutes their value to law enforcement. The 
SAR process should be reformed to a risk-based system, and the 
SAR threshold, which has not changed since 1992, should be 
raised to $10,000.
    Another aspect of BSA AML compliance is bank collection of 
beneficial ownership information on legal entity customers, 
including small businesses. This information collection is 
onerous and inefficient for both the customer and the bank 
employee. For this reason, we support the Corporate 
Transparency Act, H.R. 2513, sponsored by Representative 
Carolyn Maloney, which would require corporations to disclose 
their beneficial owners directly to the Financial Crimes 
Enforcement Network, FinCEN.
    H.R. 2513 passed the House Financial Services Committee on 
June 11th with a strong bipartisan vote, and I would encourage 
you to support that bill when it comes to the House floor.
    Second, ICBA believes a community bank should be excluded 
from the CFPB's forthcoming Small Business Data Collection 
Rule. This rule, which will require information reporting on 
every small business loan application, will fall 
disproportionately on community banks that lack the scale and 
compliance resources.
    Third, regulatory barriers to capital access for community 
banks should be reformed. ICBA supports a higher exemption 
level for Sarbanes-Oxley 404(b) for community banks that are 
publicly traded, and reforms to SEC Regulation D, which governs 
private sales of unregistered securities. These reforms would 
help community banks raise capital to deploy in their 
communities.
    Finally, a safe harbor is needed for banks that serve 
cannabis businesses in states such as Oklahoma that have 
legalized cannabis for medical or recreational use. Legal and 
regulatory uncertainty has curtailed access to the traditional 
banking system for cannabis businesses and forced them to 
operate mostly in cash, which has created a public safety risk.
    Farmers State Bank does not have any cannabis businesses 
and at this point doesn't plan to offer that, but the safe 
harbor would extend to banks that serve the many ancillary 
businesses, such as landlords, accountants, utility providers 
and others that may be paid in funds that ultimately were 
derived from the cannabis sales. These ancillary businesses are 
difficult to identify and create a legal and regulatory trap 
for unsuspecting banks.
    The Safe Banking Act, H.R. 1595, passed the House Financial 
Services Committee on March 28th on a strong bipartisan vote, 
and I would also encourage you to support that bill when it 
comes up.
    Thank you again for the opportunity to testify, and I look 
forward to your questions.
    Chairman KIM. Thank you so much, Mr. Jordan.
    Mr. Ground, we are going to turn it over to you. You are 
recognized for 5 minutes.

              STATEMENT OF HOWARD L. (BUD) GROUND

    Mr. GROUND. Okay, thank you. I want to welcome you to Tulsa 
and welcome you to Oklahoma State University. I am the 
Regulatory Director for the Petroleum Alliance of Oklahoma, and 
the Petroleum Alliance is a non-profit association with about 
1,300 member companies that include from very large--Phillips 
66--down to the very small mom and pop, but it includes all 
aspects of oil and gas, from production, midstream, the 
suppliers, the refineries, the whole spectrum of businesses in 
the oil and gas industry in Oklahoma, 1,300 companies, with the 
average employee size of 12. So we help a lot of small business 
in Oklahoma to comply with regulations. That is my position, is 
to help them to comply.
    So today, what I want to talk to you about is this 
tremendous burden of small business just to try to comply, just 
to keep up with what they need to comply with. As, Chairman 
Kim, you said, they are drowning in paperwork. There are many 
instances, and I will go through a few, but just trying to keep 
up with the amount of regulations and the constant regulatory 
change leads to uncertainty in these businesses. It leads to 
uncertainty in their planning, uncertainty in how they go to 
the capital markets for money when they want to expand.
    I also want to discuss another part of this, which is 
actually just agency policies that you may not hear a lot 
about. It is not a regulation. It doesn't go through the 
regulatory process, but it is policies within the different 
agencies in the Federal Government that are changed at their 
will. I will put it that way.
    So to start with, I want to bring up what is called the 
unified agenda of regulatory and deregulatory actions. This is 
the Office of Information and Regulatory Affairs within the 
Federal Government. I think this is a fantastic organization 
because they actually track the regulations and some policy 
changes within some 71 agencies within the Federal Government. 
I don't deal with all 71, but I brought some examples of what 
these agencies are that they deal with.
    So 71 Federal agencies, from Cabinet departments to 
executive agencies to independent regulatory agencies that 
include things like the farm credit system, commodity futures. 
There are others that deal with this. But some that I deal with 
regularly, the EPA. This report comes out periodically. I think 
it is quarterly, but this is from the spring of 2019. It may 
only be three times a year. On this it shows long-term actions 
from the EPA. There are 20 of them long term--29 of them; I am 
sorry. And these include things like underground injection 
control, ozone and particulate matter, secondary national 
ambient air quality, ecological effects of nitrogen oxide. 
These things have been going on, as I said, long term, for 
years. We have been tracking some of these issues for years. I 
have been doing this type of work for over 30, and some of 
these are never-ending.
    This is the EPA list on their agency rule list for just the 
spring. These are more current issues that are going on right 
now. There are 151 on this list. I will go through it, and I am 
tracking things that you will recognize immediately, like 
Waters of the U.S. that have been going on for years, going 
back and forth and doing changes and how they have changed it 
from one administration to the next; accident prevention 
programs; again, ozone issues.
    The Department of Transportation, 214 current regulatory 
actions, some of them in the proposed rule stage, some of them 
in the final rule stage, and some of them in the proposed rule 
stage.
    And then the last one--no, I am sorry. The Department of 
Interior, 236 current regulatory actions going on, pages, and I 
am really glad that this Office of Information and Regulatory 
Affairs does this because it helps me, it helps small business.
    The last one, Department of Labor, 62 different current 
regulatory actions going on that are required to be tracked not 
just by large industries but by the very smallest, and that is 
just a few of that 71 total.
    So there are overall regulatory burdens that even the 
smallest company has to comply with, has to track, comply, and 
implement that compliance. Organizations like ours and like the 
Chamber, we help these small companies by tracking those and 
doing it for them, because they do not always have the 
personnel. If it is a one- or two- or 10- or 20-person shop, 
they don't have the personnel to constantly track these 
regulations.
    I will give you a few real-world examples of some of these 
that actually impact small companies on the same level as your 
largest oil and gas companies. In the Department of Interior, 
through the Bureau of Land Management, the BLM, there is a 
regulation called the commingling rule, and that is when you 
commingle oil that comes from different leases, that comes from 
a private lease to a Federal lease to potentially even, in 
Oklahoma, a Native American or an Indian lease, it goes through 
the BIA, the BLM, all this that has to be permitted prior to 
going out and drilling, and you have to describe how are you 
going to commingle and account for that oil as it comes out and 
who gets payment.
    Now, that is wonderful they do that, but what we find is 
that every BLM office interprets these regulations differently. 
So the paperwork is different, the burdens that they have to go 
through to actually approve this. It can take months to get 
these permits. So then you are, as a small company, trying to 
plan and schedule a time when you are going to have, say, a 
drilling rig on a site, and it could take months to get these 
approvals through from the BLM.
    Another one is endangered species, which everyone hears 
about endangered species all the time. A couple of them in 
Oklahoma that go on in particular is the American burying 
beetle and the lesser prairie chicken. Again, these type of 
issues--and it is not like we shouldn't protect these, but when 
you have a regulatory scheme that requires that you go out and 
do tree site monitoring at certain times of the year, you 
actually cut your window down of when you can actually do work 
in the field, whether it is a drilling site or a pipeline. It 
can take months.
    Chairman KIM. Mr. Ground, in order that we can have some 
good time for questions, would you mind starting to wrap up a 
little bit?
    Mr. GROUND. Yes, I will.
    The last real time the EPA changed the regulations that 
were--it is called OOOOa, the permitting of these facilities, 
and this was one that changed during the past administration 
and then turned around and changed again for the current 
administration. So it gets uncertain for these companies.
    Now, on the other side that doesn't involve regulatory 
change, these are policies, and I will give you one of EPA that 
comes through, and I have other examples in the written. It is 
called ``Once In, Always In.'' What that means is a facility 
that has enough emissions to be considered a major source, if 
they change that source later and add control equipment where 
they are not emitting at a level that should be a mega-source, 
that EPA will not allow them to lower that to a lesser burden 
on paperwork. The current administration is going through 
changes, but it has taken two years just to go through that 
regulatory change.
    There are others in there, and I will just say in 
conclusion I just want you to keep in mind that there are other 
things besides just the regulatory process that small business 
has to keep track of, and that is the policies and the hundreds 
and hundreds of potential regulations. And on top of that, like 
Congressman Hern said, that goes to the state level and the 
local level that we are watching as well.
    Chairman KIM. I appreciate you walking us through that. 
That is very helpful.
    Ms. Osburn, over to you.

                 STATEMENT OF ELIZABETH OSBURN

    Ms. OSBURN. Thank you very much. Chairman Kim, Ranking 
Member Hern, thank you very much for this opportunity to speak 
with you all today.
    My name is Elizabeth Osburn. I am the Senior Vice President 
of Government Affairs at the Tulsa Chamber. We are a membership 
organization that focuses on helping companies of all sizes 
grow their businesses, find the workforce that they need, and 
essentially improve economic prosperity in northeastern 
Oklahoma.
    So we have more than 2,100 members from all across the 
region, not just exclusive to the Tulsa metro area, and small 
businesses are an absolutely integral part of the Tulsa 
Chamber. They actually make up over 85 percent of our 
membership. So we have about 1,800 businesses that qualify as 
small employers. I will get into this a little bit later in my 
remarks, but we qualify that as 50 employees or less.
    So these businesses range from small manufacturers, small 
proprietary consultants, and entrepreneurs even. So we have 
programming. Our small business connection engages with these 
members annually. We have a small business summit in October. I 
describe all of this to let you know about some of the 
engagement that we are doing with small businesses.
    In my role specifically regarding advocacy, we run a 
process by which we invite all of these businesses into a room 
not unlike this to sit around and debate and discuss what their 
priorities will be policy-wise for the coming year. And so we 
gain a tremendous amount of insight into these diverse 
businesses, and I would like to share some of those with you 
today.
    My remarks may be a little bit more general, but I am happy 
to answer any questions about the specifics.
    I grouped them into a few categories that we tend to hear 
most from. The first is reporting and compliance burdens under 
the Affordable Care Act; consistency or clarification needed 
across all Federal agencies; and then examples of negative 
unintended consequences when a regulation is actually put into 
practice.
    So related to reporting compliance burdens under the ACA, 
we continue to hear from small businesses that they have 
difficulty navigating some of the requirements of the Act. Our 
members have supported efforts to reduce small and mid-sized 
providers' costs of providing care such as steps to reform the 
health insurance tax, easing reporting requirements, and 
revisiting the definition of a full-time employee, which 
especially for some of our smaller businesses can be incredibly 
burdensome.
    Related to health care, many of our entrepreneurs, start-
ups, and single-employee businesses are hindered by the rule 
prohibiting their participation in association health plan 
insurance plans. What this essentially means is that in the 
past couple of years there was a ruling allowing association 
health plans offered through a Chamber of Commerce or another 
membership association to allow their members to purchase and 
provide health care through the association. But if you are a 
single-employee business, which a lot of our entrepreneurs 
are--I mean, you think about the single-employee business 
entrepreneur of today could be the next large business of 
tomorrow. You have to start somewhere. So allowing these single 
employees to participate in association health plans would be 
one regulatory burden and compliance burden that they can tick 
off their list.
    And the next general category is consistency and 
clarification needs. So a common concern from all of our small 
businesses is the need for consistency across Federal agencies. 
Our members have specifically requested language across Federal 
agencies to be updated and clarified so that when working with 
different agencies on the different compliance burdens, the 
language is similar. There is still some ambiguity about what 
actually defines a small business depending upon which 
regulation you are looking at.
    So specifically what some of our businesses have mentioned 
is classification of a worker as an independent contractor 
versus an employee, and that is 1099 versus W-2 forms. This 
would allow the distinction to be applied equitably across 
industries and allow small businesses to more easily classify 
their workforce.
    Our businesses also report, to my colleague Mr. Ground's 
point, that the constant back and forth of regulations or the 
ambiguity about the status of some of the rulemaking has hurt 
their hiring capacity because they cannot anticipate what the 
climate is going to be like. So specifically, Department of 
Labor and National Labor Relations Board targeting overtime 
pay, independent contractors, and joint employment status, 
which is governed under the Fair Labor Standards Act when a 
single individual might be employed by--considered jointly by 
one or more employers. We increasingly hear that these rulings 
disproportionately harm especially the hospitality industry and 
the non-profit sector and increase legal liability.
    Lastly, negative unintended consequences. We hear a lot of 
stories that might be a little too shocking to believe and kind 
of get your head around, so I wanted to share one today. 
Actually, Mr. Chairman, if you are going to stay in town for a 
little bit and eat some lunch, you might want to take note of 
this story I am going to share with you, Andolini's Pizzeria. 
It is a local pizza place. It is absolutely delicious, and 
actually the owner is from New Jersey, but he claims it is not 
New Jersey style pizza. It is a blend of New Jersey and 
Oklahoma.
    Chairman KIM. [Inaudible.]
    [Laughter.]
    Ms. OSBURN. It means it is good, that is what it means.
    Owner and operator Mike Bausch has expanded Andolini's over 
the past several years, opening new locations, and he recently 
came up with an idea to try to sell a take-n-bake pizza to 
another regional grocery store chain, Reasor's Grocery Store. 
In attempting this, Andolini's was forced to wade through a 
myriad of complex, even conflicting Federal regulations from 
the U.S. Department of Agriculture and the U.S. Food and Drug 
Administration, not to mention the State of Oklahoma and local 
regulations, to move their product into grocery stores, even on 
a limited basis.
    So Andolini's was not using any raw ingredients with their 
take-n-bake pizza. Nevertheless, at the point when a piece of 
fully cooked, ready-to-eat, USDA-certified pepperoni comes in 
contact with the pizza, a process statement must be gained on 
the origin of the flour, the cheese, the water, meaning that 
Andolini's must certify USDA or give USDA documentation 
certifying that they have clean water from the City of Tulsa, 
and tick on down the line.
    Well, not only that, but at the point when the piece of 
pepperoni is supplied, they have to have a trained inspector be 
present while they are making their pizza. And if they are 
making it during non-business hours, so when Andolini's isn't 
serving customers one on one, if they wanted to make it on a 
Saturday or Sunday, they have to pay an inspector $30 an hour 
to come in and watch them make the pizza.
    Now, if they are just making cheese pizza, this doesn't 
apply. If they were putting fish on their pizza, this doesn't 
apply. But the way that the regulations have shaken out, when 
pepperoni is put on the pizza, non-working hours, $30 an hour 
to come in and source the production. So the cost of this 
requirement has essentially allowed Andolini's not to expand. 
It is just not profitable to be able to carry on with this new 
business venture.
    In closing, these are some general summaries of concern; 
and, as I mentioned, I am happy to answer any more specific 
questions.
    Chairman KIM. Well, I appreciate it. It sounds like all of 
our losses that they didn't go ahead with that type of business 
model because it means I won't be able to take any home, but I 
will see if I can try that.
    I want to just jump right in, and like I said, we can kind 
of keep it pretty fluid in terms of the conversation. I just 
want to make sure we get it all on the table.
    I will ask just a few questions and then turn it over to 
Congressman Hern. Then we can go back and forth if needed, if 
we have more.
    I just wanted to start with you, Ms. Osburn. Off of what 
you were just talking about, I am just trying to get a better 
sense of what industries in particular seem to be hit 
particularly hard, and I think each of the other three can 
explain it from their own perspective of their industries, and 
that was helpful. I know you mentioned health care, you 
mentioned hospitality and non-profits, at least that is what I 
gathered from your testimony. Are there other particular 
industries that you see? I am interested in your perspective 
because you see across a number of different industries and 
sectors. What are some of the other ones that we should be 
keeping an eye out or we should try to reach out to after this 
hearing to be able to get their perspectives as well?
    Ms. OSBURN. Absolutely. We have a lot of small-scale 
manufacturers. I am looking at your nameplates, so a 
manufacturer who might produce something like a nameplate for 
outside of someone's office. We are not talking about very 
large-scale production but that spends so much time trying to 
comply with OSHA, which is I believe the Office of Safety and 
Health Administration--I am probably butchering the acronym 
there--and EEOC, Equal Employment Opportunity Council, 
regulations that we hear a lot, that that takes up an 
increasing amount of paperwork and burden time.
    Answering your question more specifically, small-scale 
manufacturers are another industry that we hear a lot about the 
reporting burden.
    Chairman KIM. Thank you.
    Mr. Selman, I wanted to ask you, you and Mr. Jordan, just 
give me a sense of, with these extra burdens that are being 
placed upon you, what does that position you to have to do to 
be able to make sure you are in compliance? Mr. Selman, you 
were saying that some of the work you had to do you are 
contracting out to someone else to be able to do. So I would 
just like to get a better sense of what does this make you have 
to do in terms of hiring an outside firm, or just get a better 
sense of the resources and the time that you have to put into 
this.
    Mr. SELMAN. I hire an outside person to deal with 
contracts, and that person costs, with the H-2A advertising, it 
costs about $3,000 per contract, and I actually do two 
contracts year after year. We have to deal with over three 
different agencies, and while we are doing that I need to be 
out in the field harvesting our crops or getting ready for it, 
which is part of it. That is part of running the business. But 
the amount of paperwork that it takes is unreal.
    Chairman KIM. And a question that I will ask more broadly 
across the board--and, Mr. Jordan, I wanted to turn to you 
after this as well on this question. But we were talking about 
the inconsistencies, and Ms. Osburn kind of hit it home in 
terms of between different Federal agencies, inconsistencies in 
wording and other regulations. With the amount of time you have 
to invest in compliance and other aspects, how does that stack 
up with the Federal compared to the state level and local 
level? Are there other types of regulations that you need to 
stay within right here at the local level within Oklahoma, and 
are there inconsistencies between that and the Federal level 
that make it all the more complicated?
    Mr. SELMAN. I deal with mostly Federal level.
    Chairman KIM. Okay.
    Mr. SELMAN. There is some on the state, and that mainly has 
to do with some housing and a little bit with the Department of 
Labor. But 90 percent of it is Federal.
    Chairman KIM. Mr. Jordan, I just wanted to get your 
perspective on this in terms of the compliance and the kind of 
resources that are needed to be able to do that, just your 
thoughts on that as well as the question I just asked Mr. 
Selman about how much of your bandwidth when it comes to 
compliance and this type of work is geared towards Federal 
compared to the state level?
    Mr. JORDAN. Just to kind of give you an idea on compliance 
costs, it is probably well over $100,000 a year for us by the 
time you hire a compliance officer and you have outside 
auditors that come in to help you make sure that you are in 
compliance. But when the compliance Federal regulators get 
there, that is an additional cost there.
    And it is just the cumulative effect of the regulations. No 
one regulation typically is so onerous that you can't get 
around it, but it has just been that cumulative effect over the 
years.
    You asked about contradictions. There is really not much 
between the Federal and the state, other than that cannabis. 
That is a big one where you sort of have some things at odds. 
But what we find is the difference between the compliance exam 
and a safety and soundness exam, sometimes those two exams are 
a little bit at odds because in the regulatory environment, 
those people don't communicate real well. So that is one of 
those things where they kind of put us at odds.
    And that compliance cost to us is obviously passed on to 
those small business customers that we do business with. We 
can't continue to absorb those compliance costs without 
offsetting that at some point. So that does make it more 
expensive for credit for those small businesses that Ms. Osburn 
represents and the service charges and things like that that go 
on. That is really where it floods out and affects everybody, 
not just mine but all those businesses that we are associated 
with.
    Chairman KIM. I appreciate that.
    I will probably have a few more questions along that 
thread, but I do want to hand it over to Congressman Hern to 
throw out some other questions and ideas.
    Mr. HERN. Thank you.
    Mr. Jordan, I would like to start where you just left off. 
One of the things we hear a lot--and Congressman Kim and I sit 
on the full committee as well, and we hear the witnesses talk 
about--one of the big conversations we have been having is 
access to capital, small businesses getting loans. There is a 
very significant critique of banks across America not loaning 
to small businesses anymore--key word ``anymore.'' You just 
alluded to why it is so difficult today to do it.
    Could you expound on why it is--first of all, let me ask 
you this question. This will probably be a simple yes or no. 
You are not averse to loaning to small business people with 
ideas?
    Mr. JORDAN. No.
    Mr. HERN. Just expound on that piece. I mean, people come 
to you with a business plan, they come to you with hopefully 
some collateral and some credit history, and if they don't, 
then SBA is always kind of the lender of last resort as an 
opportunity to start that business up. But could you expound on 
what has happened in the regulatory process over, say--you 
alluded since 2009. Could you talk about what burdens have 
grown, have changed the behavior or the relationship between 
community banks and small business men and women in these 
communities?
    Mr. JORDAN. The really short answer is you have a regulator 
looking over your shoulder, questioning every decision that you 
make. A small town where we are from, we know everybody in 
town. We know what is going on, we know what is happening. But 
the question that typically bankers ask today when they are 
faced with a loan application there, one of the first things 
they think of is how are the regulators going to look at that 
if I approve that loan?
    So that is the short answer right there.
    Mr. HERN. So the days of a person walking in and saying 
they need $100 to start a lawn-mowing business on a passbook 
account are long gone; right?
    Mr. JORDAN. Well, we do our best to try to still 
accommodate that. We have to get fairly creative in working 
around that. But that is one of the things, the rules change. 
As long as we know what the rules are, a lot of times it is 
easy, you figure out a way to get those things done. But 
sometimes the rules are a little bit ambiguous.
    Mr. HERN. You mentioned in your testimony you have gone 
from being a banking business to a compliance business. How has 
your compliance officer staff level changed in the last 10 
years?
    Mr. JORDAN. Well, 10 years ago we didn't have a person that 
was called a compliance officer. The compliance issue fell 
across several people, which it still does, but you still have 
to have a person that is in charge of the compliance function. 
What the state alluded to is if you were to come and sit in on 
our strategic planning meetings, the focus has changed from 
what do we need to do to be making more loans, getting more 
deposits, to how are we going to deal with this compliance 
issue, how are we going to deal with that compliance issue. So 
that dynamic has just completely shifted, and it is aggravating 
that your strategic planning has to be centered around 
compliance.
    Mr. HERN. Which is what you alluded to, that you either 
know the person who is asking for a loan in your community, or 
you know the parents of the person who is asking, or you know 
somebody that knows them very closely, whether that person is 
asking for the right reasons or can actually fulfill what they 
are saying they are going to do.
    Mr. JORDAN. Yes. Like Mr. Selman here, if we were in his 
community, we would probably know what is going on down there. 
I drive by his trees every day, so I know what is happening, 
what he is doing out there. You just don't get that from what 
is happening on a piece of paper. So we feel like that there is 
just that disconnect and it has just not allowed us to really 
get that personal relationship that is so crucial to that small 
business success.
    Mr. HERN. I would like to ask you one other question. Could 
you expound a little bit on the marijuana banking issue? You 
shared with the Chairman that that is one of the big 
discrepancies between Federal law, state law. The people of 
Oklahoma have spoken recently and wanted medicinal marijuana, 
yet basically have a cash business right now. Could you talk 
about that?
    Mr. JORDAN. Yes. Really what you are looking for from the 
banking side is just some assurance that you are not going to 
get tagged for something that you didn't intend to do. With the 
laws in Oklahoma allowing medical marijuana at this point--so 
there are dispensaries opening up on every corner--those people 
have to have somewhere to bank, and the local bank may decide 
that they don't want to do that at this point because it is at 
odds with the Federal regulations still at this point.
    But the problem for us is it touches all these other 
things. I mean, the employee that works for that who is not the 
owner, their income is going to be derived from the cannabis 
sales. Well, they need to do business with your bank. Well, is 
that money laundering? I mean, that raises the question, those 
SAR reports that we have to fill out. So an overly protective 
compliance officer is going to say, well, if we know that 
employee works at that dispensary, we are going to fill out a 
SAR every time they come in and make a small deposit.
    So we just want to know that we are not going to get tagged 
for that inadvertent cannabis-related cash that might be coming 
through our institution. Does that answer----
    Mr. HERN. It does. Thank you.
    Mr. Ground, obviously this is about Congress, what we can 
do to change the regulatory environment for each of the 
particular industries that we are trying to reference today. 
What changes, if you were able to communicate this to us right 
now, what changes would you like to see Congress make to 
improve the regulatory landscape in the energy industry? Any 
particular one that you think is preventing us--under President 
Obama's administration, you started working on freeing up the 
ability to be energy dominant. We sort of accelerated that now. 
What particular regulation today is driving you most crazy in 
your role?
    Mr. GROUND. Well, there are several.
    Mr. HERN. This is what I have learned in Congress in my 
short months. We don't deal in multiple things very well. It is 
like one at a time, so it takes forever to get anything done.
    Mr. GROUND. So I will start with EPA.
    Mr. HERN. Okay.
    Mr. GROUND. There are changes within EPA that have changed 
from one administration to the next, and that has happened with 
every administration. Just some consistency in that. And it is 
also, like Ms. Osburn said, you have competing Federal agencies 
that have tried to regulate the same thing, and they conflict, 
or one is more burdensome than the other. And I would say if 
you could let EPA do what EPA does, and let BLM do what BLM 
does, and not try to cross over between the two, it would be 
extremely helpful. That is one issue that has come up within 
the last few years, is BLM trying to take on EPA-type 
regulations.
    Mr. HERN. Okay. That is really good to know.
    Mr. Selman, you mentioned in your testimony that the H-2A 
program is very complicated, and therefore you out-source the 
management of the entire process. If you had to manage the 
entire process, how would that impact the way you ran your 
farm?
    Mr. SELMAN. I probably wouldn't have employees coming to my 
house, unfortunately. It is so complicated that it would be 
delayed for harvest, and I would end up losing money, and that 
would probably be the number-one thing that would be. It would 
just be done incorrectly, and every time it is done 
incorrectly, anything that is done through the government, it 
takes a while, so you want to make sure you have it done right 
the first time, and on time.
    Mr. HERN. You made a statement a minute ago--and I don't 
have it written down. I do have it written down, but I have 
heard it a lot in my lifetime, and it is the statement that the 
reason we bring in immigrant workers, either seasonal or they 
have work visas, is because Americans don't want to do the 
work.
    Mr. SELMAN. That is correct.
    Mr. HERN. Why do you think that is?
    Mr. SELMAN. I think we are just--the United States is 
evolving to a more electronic labor force. Everything is 
becoming more electronic on computers and everything else, and 
I think more people are wanting to do that rather than get out 
in the field and get their hands dirty and be in the cold and 
the heat. It is easier work than that.
    Mr. HERN. So the days of hauling hay are over, right?
    Mr. SELMAN. The days of hauling hay are just about over. 
That is why they build equipment to stack them all by 
themselves.
    Mr. HERN. I appreciate that. In your testimony you state 
that the Department of Labor is proposing a modernization of 
the H-2A program. This is a good thing. However, the challenge 
of the H-2A program existed for a long time. Is what you are 
describing, is that a brand new problem that we are having, and 
why does it take so long to address the needs of the farmers? I 
mean, the crops come off at the same time roughly every year, 
so it shouldn't be like--I mean, the agricultural people--the 
Department of Labor that is approving this, or the Department 
of State that is approving these, they know when the harvest 
season is for the particular industry that needs these workers. 
Why is this so difficult, do you think?
    Mr. SELMAN. Well, it is all done on an individual basis, if 
that is answering your question correctly. Each individual farm 
might need them--like watermelons we harvest at different times 
than pecans. Pecans are harvested during the winter, and 
watermelons are harvested during the summer. So that is one of 
the reasons why you can't just put a blanket statement on it, 
okay, we are going to get workers in the U.S. from July to 
November. It just wouldn't work. So each individual farm is 
different and they have different needs.
    During the summer we are baling hay and brush hogging. We 
don't do that during the winter. So our needs during the 
summer, we have different needs during the winter. And these 
months during, say, March and April, I don't have as much need 
for labor at all.
    Mr. HERN. So I think this would go to Ms. Osburn and to 
you, since you deal across multiple businesses and you deal 
with a particular business, plus you are a member of the Farm 
Bureau, so you hear this from your colleagues. Probably the 
most important issue that matters to people in the 1st District 
of Oklahoma, the State of Oklahoma, and I would say even in 
this country, is the issue of immigration. While we don't want 
to talk about that a lot of times, when you talk to business 
communities they are all for immigration reforms, except the 
reforms have got to be able to produce workers that we still 
have.
    So I would love to get your thoughts if you think that is 
factual, first of all, and not just some talk behind the doors. 
Is it actually factual that people are very concerned that with 
immigration the way it is going right now, that there is going 
to be a real shortage of workers, more so than there is right 
now, and what am I going to do with my crops? From your 
standpoint and what you are hearing from small businesses, 
landscaping businesses, roofing businesses and places like 
that, just to get your general thoughts.
    I will go to Ms. Osburn first and let you think about that 
one.
    Ms. OSBURN. Certainly I would echo what my colleague has 
said, that we hear a lot about the H-2B program, which is for 
seasonal workers such as a Christmas tree farm or something 
that is not necessarily agricultural but is seasonal hands-on 
work, and then also on the H-1B program with more highly 
trained engineers or someone like that, that is an absolutely 
critical workforce shortage that a lot of our small businesses 
have, whether it is in energy, a smaller energy company that 
needs some sort of very highly trained engineer or another 
company that utilizes an H-1B.
    So I would say, by and large, that the inability to predict 
what is going to happen with immigration reform year after year 
is certainly hurting our businesses in knowing where their 
trained workforce might come from and their ability to plan 
ahead for the coming year, and their ability to grow.
    Mr. HERN. One could even argue that the situation is not 
going to fix itself, and the longer we kick this down the road, 
the less people are going to want to do the job, Americans, as 
you described earlier, that we have got to get this fixed, we 
have to come up with a solution that resolves this issue, do we 
have people who can actually perform the work that is needed to 
be done in the United States to keep our economy growing, 
accelerating our economy, at the same time protecting the needs 
of those folks that we have here.
    Did you want to add anything to that conversation?
    Mr. SELMAN. Yes. She is talking about the H-2B. Pretty much 
all business owners that I have ever talked to that have any 
type of intense labor, hands-on labor workforce is very much 
for any type of immigration reform that gets employees to their 
doorstep. There is an absolute need for this foreign labor to 
come in and do it, especially on a seasonal basis. My guys, I 
have one guy that has been working for me for 13 years. I can 
walk away from the operation and he can take care of all of it. 
He is a seasonal employee. To get seasonal employees here in 
the U.S., you are more than likely not going to see them again 
the next year. They are going to have another job, especially 
if they are a good employee. They are going to go out and find 
a full-time job somewhere and be able to provide for his family 
very well, if it is seasonal, it is really temporary.
    So that is one of the main points, is to be able to have a 
good workforce when you need it, a reliable workforce.
    Mr. HERN. Thank you.
    I am going to pass it back to the Chairman, and then I am 
going to come back with one or two in closing. That would be 
great.
    Chairman KIM. Great. I wanted to kind of continue on the 
thread that I was pushing on earlier.
    Mr. Ground, I wanted to just get your perspective. During 
your testimony, you were talking about how part of your job and 
your organization's job is to help small businesses keep up to 
speed with the myriad of rules and regulations that you rolled 
through, and that was very helpful for you to just kind of lay 
out all the different numbers from these different departments 
and agencies.
    I wanted to dig into that a little bit more. If you can 
tell me where the intersection is between some of the work that 
you are doing and what your organization provides in terms of 
helping small businesses navigate that, how that threads with 
what I had heard from Mr. Selman and Mr. Jordan about in-house 
compliance or contracted compliance. I am just trying to get a 
better understanding myself of the constellation of what has to 
occur for small businesses to be able to stay up to speed.
    Mr. GROUND. Okay. For our typical small business, we being 
the Petroleum Alliance, we help them by tracking the 
regulations, the changes, and then communicating that with 
them. So from the start of it through the process, we make 
comments. I do not go to D.C. I do not lobby there. That is not 
part of my job. Everything is done from here in Oklahoma or 
with staff. But we do go through that process and try to make 
sure that the different agencies at least have our 
understanding or our comments, and then we also work very much, 
even more so, as you asked earlier, on the state level. So once 
that EPA regulation has changed, then the state-delegated 
agency in our case, which is the Oklahoma Department of 
Environmental Quality for most of the issues--actually, the 
Department of Ag here has some, Environmental, the Oklahoma 
Corporation Commission has some of them. So when it gets down 
to the state-delegated agency, then we work very hands-on in 
making sure that the regulation that is developed from that 
Federal regulation is something that we can comply with. So 
that is where we really get more involved, and that is where I 
get the member companies more involved in the regulatory 
process, because then they can make comments on the state 
level, they can go visit with the regulatory agencies.
    But once it gets to the state, it is at a variety of 
agencies. So then it is still a little difficult, like with 
injection control. Underground injection control is housed 
between the Oklahoma Corporation Commission, which does oil and 
gas issues, and the Department of Environmental Quality, 
because some are just industrial and some are oil and gas. So 
there is a process that we go through.
    We help them on making sure that the regulations are 
something we can comply with and try to lessen that burden on, 
say, monitoring and reporting. But we as the Alliance, we do 
not do the compliance. Then the small business has to go to, 
usually, especially a small business, to a consultant, and that 
consultant then helps them develop their plans and their 
compliance and helps them with their monitoring and their 
testing, and even tells them a lot of times what new equipment 
they have to install to meet compliance.
    So we have a point that is only through the regulatory 
process, legislative regulatory, and then it is turned over, 
and that is where the real financial burden starts with the 
small business. It is once they have to hire that consultant to 
develop their actual compliance plan, permits, or whatever is 
required, or equipment to be installed.
    Chairman KIM. Great. No, that is helpful.
    Just one last question from my end that will kind of open 
it up to anyone who wants to speak on this. What I am trying to 
think about just sitting here and trying to think about what 
Congressman Herd and I can do coming out from this, how it is 
that we can try to make the best case for taking some actions 
along these routes with our colleagues back in D.C., certainly 
it is very helpful to have a deeper understanding of the harm 
or the burden that this places on small businesses. But one 
other thing that could be helpful just from my perspective is 
to be able to explain how taking these steps will alleviate 
that and show the positive aspects of this.
    So I guess I just wanted to ask the four of you if there is 
an example, if one of the regulations Congressman Herd talked 
about that recently was either taken away or reduced, some 
example of how something of that nature has opened it up, or 
you heard directly from small businesses and owners about how 
that might be able to help out. For instance, Mr. Jordan, when 
we are thinking about how Dodd-Frank might be hitting small 
businesses or community banks, now with some of the provisions 
that only affect banks that have $250 billion or more, have you 
seen benefits from that type of move tangibly, whether in your 
own or from other banks? Those are some of the things that will 
help me understand, if this were to happen, what are some of 
the success stories where it has reduced the burden upon small 
businesses and the sky didn't fall and things didn't go crazy. 
That would be really helpful if anyone has any specific 
examples right now. Anything you can think of?
    Mr. JORDAN. Just for us personally, my bank, that BSA AML 
stuff that I talked about, that regulation can't go away. That 
is something that is very important in fighting terrorism. But 
tweaking that, because it was implemented and has just remained 
stale, tweaking that makes a difference there.
    But again, it is really hard to pinpoint just one 
particular regulation because, again, it is the cumulative 
effect. It is not just peeling back that one layer, which is 
great if you can do it, but that one layer doesn't always have 
a significant impact, because it has just been years on years 
on years. It just keeps piling on, and that is the big deal.
    But like you said, Dodd-Frank, there are so many issues to 
Dodd-Frank. The latest, and specifically to the banking 
industry, was 2155 a year or so ago. Those were things that 
helped right there, and it is a mixed bag with banks. There is 
a lot of it that really didn't apply to my bank specifically, 
but for banks as a whole it was definitely something that was a 
positive for us.
    Chairman KIM. That is helpful. If anyone else wants to jump 
in, I didn't want to put you on the spot on this one, but think 
about it, and if there are other things that come to mind, let 
me know, because those are the kind of examples and arguments 
that help us make the case, when we can say look what happened 
when this regulation was reformed or removed a couple of years 
back, these businesses or this sector was able to increase this 
or that. You are right, there is going to be a cumulative issue 
here, while our conversation has been more systemic about very 
specific things. But do keep that in mind, and if there is 
anything that comes to mind, I will certainly leave you all my 
card. Please let me know. That is the kind of stuff that I 
think will be helpful as well.
    Mr. Selman, is there anything you wanted to add?
    Mr. SELMAN. Yes, real quick. I mentioned that the 
Department of Labor is trying to modernize the H-2A labor 
program. They came up with one solution that would really help 
fix it, and I believe if it is not up for comment, it is going 
to be up for comment shortly. But it is taking it where instead 
of, like me personally, doing two contracts to bring employees 
at two different times, just doing one contract for the year 
and being able to bring up the employees when you need them.
    Say with all the flooding that happened, I need a couple of 
guys for a month to come up and work, I can just call down 
there and tell my guys to come up for a month, for however long 
I need them. I think everybody in the ag industry would very 
much approve of this if it pulls all the way through, and it 
would really help.
    Chairman KIM. That is helpful.
    Well, those are all my questions. Congressman Herd, 
anything else you want to follow up on?
    Mr. HERN. Sure. I would like to follow up on this banking 
marijuana for just a second. Those that are not in the world of 
banking, sir, like you have been for multiple generations, 
somebody that--I think I understand it pretty well. But I think 
I would like to paint this picture one more time, if we could.
    By not banking marijuana, will that end medicinal marijuana 
in Oklahoma and other states because it is not being banked? 
Will that run the marijuana people out of business because it 
can't be banked?
    Mr. JORDAN. That is a hard question. That is a good 
question, though, to ask. I don't think that it will. I think 
they are going to find some way, somehow. I think you could 
look to Colorado. They have probably been doing it longer than 
anybody and still not all--I mean, you would think that every 
bank in Colorado banks cannabis, but they do not. A lot of them 
have said we are just not going to go into that, and it is just 
because of the compliance that you have to do that.
    But they are making it right now, they are opening up, so 
they are figuring out a way to do it. My thought is even if a 
bank says, hey, we want to stay away from it, it is going to 
touch you some way, somehow. They are going to figure out a 
way, once they know what the rules are, they are going to 
figure out a way how to do it. But I can't see it just not 
happening.
    Mr. HERN. Well, it is not federally required, and we 
continue to add states every election cycle--Arkansas, 
Oklahoma, the list goes on and on. So it hasn't been a 
deterrent to people to open the businesses.
    Mr. JORDAN. No.
    Mr. HERN. So where is the cash if it is not going into 
banks? Where is that at?
    Mr. JORDAN. They have it in their back room.
    Mr. HERN. It is pretty scary, right?
    Mr. JORDAN. Yes. I did see there was an entrepreneur there 
in Oklahoma City, though, that he was going to set up a vault 
business for those that wanted to just come and bring their 
cash to him.
    Mr. HERN. So is it plausible that a person with a lot of 
cash could lend to other people who need cash and you create a 
whole industry of cash lending?
    Mr. JORDAN. Yes, that happens today.
    Mr. HERN. So what about payroll taxes? If these people are 
working for these different dispensaries and the farming 
process, they are getting paid, but if you can't take your 
payroll check to the bank and cash it, it is a cash business, 
so we are going to lose the payroll tax. Social Security and 
Medicare, Federal taxes, state taxes, local taxes will never be 
charged on any of that money.
    Mr. JORDAN. Yes, because it is all cash.
    Mr. HERN. So people need to understand the enormity of this 
problem, that if we don't bank it--you didn't create the 
problem. You are trying to be a solution to the problem.
    Mr. JORDAN. We are just trying to deal with it.
    Mr. HERN. Yes, thank you.
    I have one final question that kind of goes across to 
everybody. I could ask questions all day. This is my bailiwick. 
This is what I love to hear, and the Chairman knows this. Thank 
goodness we are in Washington, D.C. and limited to 5 minutes, 
or we would be talking for a long time.
    Do you believe that the Federal agencies understand the 
challenges that small businesses face in complying with 
regulations in their communities?
    I will start with Ms. Osburn.
    Ms. OSBURN. No. I think that is where--and, Mr. Chairman, 
to answer your earlier question, I think that that would be 
something that would be greatly beneficial, is some sort of 
communication, some sort of leaning on the agencies, maybe to 
feel a little bit of pressure to help understand the burden 
that a lot of this is placing upon small businesses.
    Mr. HERN. Thank you.
    Mr. Ground?
    Mr. GROUND. I will go just the opposite and say yes. I have 
seen in the last couple of years a change in an attitude, and 
it is more on the local Federal agency offices, like the local 
U.S. Fish and Wildlife Office. They have had a change in 
leadership. A lot of times that is all it is, is a change in 
leadership, which changes the attitude, which very much changes 
now the field of people who work with companies, which in the 
past couple of years, few years, has been tremendous.
    The same for the local Bureau of Land Management Office in 
Norman. It has got to where we actually have industry-agency 
periodic meetings where we talk to them about issues. I would 
say before we started holding those they did not understand our 
perspective, what the burden was. So we have actually started 
working through and have a much better working relationship.
    And then with EPA Region 6 in Dallas, I hate to call them 
bureaucrats, but some of the people, the long-term employees 
there do not understand, and you never--someone like me never 
gets an opportunity to meet with them. But you have enough of a 
change in their leadership where we work with them, and it 
really gets back to where there is a better working 
relationship.
    So to me, any time we can work with the Federal agency, it 
helps them to understand. I have seen in the past where they do 
not. They say, no, we are not going to--you do what we tell you 
and there is no two-way conversation. So I have seen a change 
in the last few years.
    Mr. HERN. Mr. Jordan, I am going to repeat the question. Do 
you believe that Federal agencies understand the challenges of 
small businesses, in your case banks, facing complying with 
regulations?
    Mr. JORDAN. It is a mixed bag. I think from our safety and 
soundness regulatory people, they kind of see that. But the 
compliance don't seem to see that. But I would echo Mr. 
Ground's comments. We have seen a little bit of a change when 
you have seen change in the leadership of those agencies. There 
is a little bit more cooperative stance today than probably 
there was six or eight, 10 years ago. Of course, 10 years ago 
we were in the middle of a crisis too, in the banking, so that 
was a different environment than it is today. But to me, at 
best, it is kind of a mixed bag.
    Mr. HERN. You just made a comment--I hadn't thought about 
this--in regard to Dodd-Frank and the safety and soundness 
versus compliance. Do you think there ought to be--and I don't 
know that there isn't, but I am going to assume that there 
isn't--a scale that says if you have consecutive quarters of 
very safe and sound, your asset levels have been great, you 
have hit all your marks on CRA and stuff like that, that maybe 
your regulatory meets with OCC and all those various agencies 
are spread out farther to give you more breathing room?
    Mr. JORDAN. Yes, it would help. There is a little bit of 
that going on now on your exam cycle. It went from a 12-month 
to maybe an 18-month, which it could probably be even more than 
that. But that is what we would like to see, is more of a risk-
based approach to the regulations that you put in. 
Specifically, we are just looking at Farmers State Bank. I 
mean, we are definitely not a systemically important 
institution, but yet we are under the same rules and 
regulations that Bank of America is. When you are looking at 
that, if you would risk-base that, or if they could on just the 
metrics that you mentioned, that certainly would be a welcome 
thing in the community banking world.
    Mr. HERN. Mr. Selman, thoughts?
    Mr. SELMAN. I actually agree with Mr. Jordan here. You have 
got your agencies you are working with. Some of them are more 
educated on all the burdens that you go through than others. 
USDA, we are talking with them quite a bit, so they are very 
intelligent on what the farmers do. If you are talking with, 
say, the Department of Immigration or Homeland Security, or 
maybe even the Department of Labor, they might not understand 
what goes on, that you have to deal with these other agencies. 
They just see this one agency, this one particular item that 
you are dealing with and they don't see everything else. I 
think a lot of it is just educating them on what we are doing.
    Mr. HERN. Thank you.
    Mr. Chairman, I think that is all my questions.
    Chairman KIM. That is great.
    Again, I just wanted to thank all the witnesses for coming 
on out and giving us your perspective, and I think that final 
question that the Ranking Member just said I think really sums 
it up. We wanted to make sure that those that are in charge of 
making these regulations from the congressional side or from 
the executive branch side, and implementing them, that they 
understand your experience, that they understand the user 
experience, for lack of a better word, from the small business 
side of how this impacts them.
    I think you are right. I think Mr. Selman really hit the 
nail on the head, that oftentimes some people in Washington are 
only thinking about it from their particular slice, whether 
that is issue based or department based or geographic based. 
They may not necessarily be thinking about the big picture and 
how all of this accumulates from a small business perspective 
side or an individual side, so that is really helpful.
    I think for me, just a couple of takeaways that I think 
about when I think about what it means to be in the shoes of a 
small business owner or worker. Certainly, there needs to be a 
need for flexibility, some nimbleness in terms of how small 
businesses are able to operate for them to be able to deal with 
their work, and this is certainly impacted by some of these 
rules and regulations.
    Two, I think Mr. Selman really hit this home, the need for 
expertise and experience, to be able to hire workers, to be 
able to have the flexibility that you need, the ability to be 
able to bring in the kind of talent that you need to be able to 
get the job done, especially if there is a shortage, or 
especially if you can't find others that are able to do that.
    Third, the need for predictability. There is a lot of 
uncertainty in planning, and it is already a difficult business 
climate oftentimes for different industries, and businesses 
need to be able to plan not just what the next six months or 
year is going to look like but what is going to happen two, 
three, four, five, 10 years down the road, and be able to do 
that type of plan that is very difficult when regulations and 
rules are changing and it is hard to keep up with it and you 
don't know what direction it is going to go.
    I think, again, a lesson that I learned from Mr. Jordan is 
that it is not just one specific regulation or issue or 
different issues, that it has a cumulative effect, that this is 
a systemic problem that we need to address, and there is a 
deeper question about what is the importance and what is the 
role that these types of rules and regulations play.
    And certainly all of us understand there are times and 
places when it is important, when it is dealing with the health 
and safety of our families, our communities, when it is dealing 
with the security of our nation as a whole, or whether it is 
dealing with environmental protections in important ways that 
deal with our own communities and our commitments to 
conservation. There are certainly places that we see it, but we 
need to make sure that it is, first of all, the right value 
that we are pushing on, and second, that it is dealing with it 
in an effective way and that the rules and regulations are 
actually getting at the issue and the intent for which it was 
created, while also not creating an over-burdensome 
perspective.
    So I certainly take a lot out from this. I come before you 
all here in Tulsa today with a lot of humility. I am not here 
thinking that I know what is best for your community. I don't 
know all the issues that you are facing here in Oklahoma, what 
small businesses face here. I hear a lot of echoes, 
similarities with my own community, whether it is with what Mr. 
Selman said that sounds a lot like what I hear from cranberry 
growers and blueberry growers in New Jersey, or even just the 
shore towns that need to hire people to staff the boardwalk and 
other places during the season and being able to get the amount 
of workers that they need.
    So I certainly see a lot of reflections. I think there are 
a lot of things that bind New Jersey and Oklahoma, but then 
there are also other things that are going to be different, and 
that is exactly why Congressman Hern and I need to work 
together and work with other members of Congress all across the 
country to figure out what are the areas that we feel are 
common threads, how do we make sure that things that might be 
good for New Jersey aren't going to be bad for Oklahoma, and 
vice versa, and those are the types of things.
    So what I will tell you is that I feel like I can speak on 
behalf of the two of us and the broader Committee, that we are 
committed to working for small businesses, we are committed to 
working with you doing what we can, and I just greatly 
appreciate this opportunity and the hospitality that you have 
shown me coming into your community, and I look forward to 
coming back around again sometime in the future.
    I just want to turn it over to the Ranking Member for some 
final words.
    Mr. HERN. Mr. Chairman, again, I want to thank you so much 
for doing this. I appreciate it. The Small Business Committee 
is a nice oasis in Washington, D.C. It is a place where you 
hear from witnesses and nobody would know--they could walk in 
and listen to your testimony and never know how you ever vote 
because it is about one thing, it is about how you make your 
businesses better for the people that work for you regardless 
of how they vote. That is what it is all about.
    I have said this countless times, almost every time that I 
have had the chance, which is every time, on our full Committee 
when we have witnesses speak, that I wish every committee, the 
other 21 committees in the House of Representatives, could have 
witnesses like we have, because they come in, they pour their 
hearts out, asking us to help them to be able to run a better 
business, to start businesses, to be a better employer so they 
can do the right things to do their part in making this the 
greatest country in the world.
    We have a lot of work to do. The pendulum always swings 
from no regulation to over-regulation. We have to find that 
harmony, as the Chairman said. We can all work together to move 
this country forward. When you have almost 30 million 
businesses in the United States that are small businesses, 
which represent, as I mentioned in my opening statement, 99.7 
percent of all business in the United States are considered 
small businesses.
    We have a lot of work to do. When you think about that, 
that responsibility, that size of the entire workforce in the 
United States is bipartisan, you would wonder why we couldn't 
take what we have here in Washington, D.C. in the Committee and 
cross-pollinate that to the rest of Congress to get so much 
done.
    Just this past week we passed out of Committee six bills 
that were specifically to our veterans, directed to our 
veterans, to help them start businesses as they come out of the 
military that we are sending to the floor for a vote that I am 
sure will pass with bipartisan support.
    So we have a lot of work to do to listen to you all, get 
your respective issues to the respective committees with our 
recommendations, our thoughts from all the committee hearings 
that we have. We have great staff members here. It has been 
video recorded. Everything we do is recorded so we always have 
the archives of what was said, who said it, and what the intent 
and the passion was behind it.
    So with that, I want to thank all of you all. You are great 
Oklahomans for being here. I appreciate you taking your time to 
be here to do what may not be comfortable for you to do, speak 
about who you are, what you are about, your concerns, and with 
a little bit of doubt in your mind, am I just talking to a 
wall. I get that, I understand that.
    But I want you to know, and I speak for the Chairman--I 
just want to say this in passing before we leave here. The 
Chairman, when we first sat down, the first thing he said to 
me, he says I have never been in small business before, but I 
want to learn.
    You have to have that kind of relationship, because there 
are many things that he has done that I have never done. You 
have to be willing to sit down. That is what is broken in 
Washington, that nobody is willing to sit down and have these 
kind of conversations that we are having today. We have to do 
that so we can get some things done.
    Thank you all so much, and safe travels home. Appreciate 
it.
    Chairman KIM. Thank you so much.
    I would ask unanimous consent that members have 5 
legislative days to submit statements and supporting materials 
for the record.
    Without objection, so ordered.
    And if there is no other further business to come before 
the Committee, we are adjourned.
    Thank you so much.
    [Whereupon, at 10:43 a.m., the Committee was adjourned.]
    
    
                       A P P E N D I X
                       
                            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                            


                                 <all>
</pre></body></html>
